No. _______________
--ooOoo-IN THE SUPREME COURT OF THE UNITED STATES
--ooOoo-ARCHIE NED WILLIAMS, Petitioner
vs.
UNITED STATES OF AMERICA, Respondent
ooOoo-ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
--ooOoo—
PROOF OF SERVICE
Pursuant to Rule 29, I certify that I am a member of the Bar of this Court, I
was appointed to represent petitioner pursuant to 18 U.S.C. § 3006A, and that I
served the enclosed Motion for Leave to Proceed in Forma Pauperis and Petition for
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit by
depositing copies with the United States Postal Service, with first-class postage
prepaid and addressed to:
Solicitor General of the United States,
Room 5614, Department of Justice,
950 Pennsylvania Avenue, NW,
Washington, DC 20530-0001

I additionally served copies electronically, addressed to:
SupremeCtBriefs@USDOJ.gov;
matthew.yelovich@usdoj.gov.
Executed on September 30, 2021, at Oakland, California.

ELIZABETH GARFINKLE
Law Office of Elizabeth Garfinkle
P.O. Box 13172
Oakland, California 94661
lizgarfinkle@gmail.com
(510) 501-0542
Counsel of Record for Petitioner,
Archie Ned Williams

